 ~ SUVIC'(r
                  DEPARTMENT OF
                  DEPARTMENT OF HEALTH
                                HEALTH&&HUMAN
                                        HUMN SERVICES
                                              SERVICES                                      OFFICE OF INSPECTOR GENERAL

(~~~~~
   -l                                                                                       Offce of Audit Services,
                                                                                            Office
                                                                                            Public
                                                                                            Public Ledger
                                                                                            150 S.
                                                                                            150
                                                                                                                     Region m
                                                                                                            Servce, Region
                                                                                                           Building,Suite
                                                                                                    Leger Buildi,
                                                                                                S.Independence
                                                                                                   IndependenceMall
                                                                                                                     Suite 316
                                                                                                                  Mal West
                                                                                                                              m


                                                                                            Philadelphia,
                                                                                            Philadelplu PA   19106-3499
                                                                                                          PA 19106-3499

                                                          AUG 142009
                                                          AUG 1 4 2009

                     Number: A-03-07-00011
              Report Number: A-03-07-00011

                  Patrck Kiley
              Mr. Patrick
              President
              Highmark Medicare Services
              1800 Center Street
                    Hill, Pennsylvania
              Camp Hill,  Pennsylvana 17089
                                       17089

              Dear Mr. Kiley:

              Enclosed is the U.S. Department
                                    Deparment of ofHealth
                                                    Health and
                                                             and Human
                                                                 Human Services
                                                                          Services (HHS), Office of Inspector
              General (OIG),
              General  (OIG), final report entitled "Review of of High-Dollar
                                                                  High-DollarPayments
                                                                                Payments for Pennsylvana
                                                                                              Pennsylvania
              Outpatient Claims Processed by Highmark Medicare Services Services for
                                                                                  for Calendar
                                                                                      Calendar Years
                                                                                                Years 2003-2005."
                                                                                                      2003-2005."
                  wil forward
              We will  forward aa copy
                                  copy of
                                       ofths
                                          thisreport
                                               reporttotothe
                                                          theHHS
                                                              HHSaction
                                                                    actionofficial
                                                                           official noted
                                                                                    noted on
                                                                                          on the
                                                                                             the following page for
              review and
                     and any action deemed     necessar.
                                      deemed necessary.

                  HHS action official will
              The HHS                    wil make
                                             make final
                                                    final determnation
                                                          determinationasastotoactions
                                                                                actions taken
                                                                                         taken on
                                                                                               on all
                                                                                                   all matters
                                                                                                       matters reported.
                                                                                                                reported.
                  request that
              We request   that you
                                yourespond
                                     respondtotothis
                                                 thsofficial
                                                      offcial within
                                                              withn 30
                                                                     30 days from
                                                                               from the
                                                                                     the date
                                                                                          dateof
                                                                                               ofthis
                                                                                                  ths letter.
                                                                                                       letter. Your
              response should present any comments or additional information that you believe may have a
              bearng
              bearing on the final
                              final determnation.
                                    determination.

              Pursuant to the principles ofof the Freedom of Information Act, 5 U.S.C. § 552, as amended by
              Public Law 104-231, OIG reports generally are made available to the public to the extent the
              information is
              information  is not
                              not subject
                                  subject to
                                           to exemptions
                                               exemptionsininthe
                                                               theAct
                                                                   Act(45
                                                                       (45CFR
                                                                           CFRpart
                                                                               par5).
                                                                                   5). Accordingly,
                                                                                       Accordingly, this
                                                                                                     ths report
              wil be
              will beposted
                     postedon onthe
                                 the Internet
                                      Internet at
                                               at http://oig.hhs.gov.
                                                  http://oig.hhs.gov.

              If you have any questions or comments about this report, please do not hesitate to call me at
              (215) 861-4470, or contact Bernard
                                         Bernard Siegel,
                                                 Siegel, Audit
                                                         Audit Manager,
                                                                Manager, at
                                                                          at (215)
                                                                              (215) 861-4484
                                                                                    861-4484ororthrough
                                                                                                 though email
                 Bernard.Siegeicmoig.hhs.gov. Please refer to report number A-03-07-00011 in all
              at Bernard.Siegel@oig.hhs.gov.
              correspondence.

                                                               Sincerely,


                                                               )~LÙ~
                                                               Stephen Virbitsky
                                                               Regional Inspector General
                                                                 for Audit Services

              Enclosure

              Copy:
              Mr. Jame
                  Jamie Bylotas
              Director, Quality &
                                & Performance Management
Page 22-- Mr.
Page      Mr. Patrick
              Patrck Kiley
                      Kiley


Direct Reply
Direct Reply to
             to HHS
                HHS Action
                    ActionOfficial:
                           Offcial:

Nanette Foster
Nanette  Foster Reilly,
                 Reily, Consortium Administrator
Consortum for
Consortium   for Financial
                 Financial Management
                           Management & & Fee for Service Operations
Centers for
        for Medicare &  & Medicaid Services
601       12th Street,
601 East 12th  Street, Room
                       Room 235
Kansas  City,
Kansas City,   Missouri  64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    REVIEW OF HIGH-DOLLAR 

 PAYMENTS FOR PENNSYLVANIA 

      OUTPATIENT CLAIMS 

        PROCESSED BY 

 HIGHMARK MEDICARE SERVICES 

FOR CALENDAR YEARS 2003–2005





                    Daniel R. Levinson

                     Inspector General 


                       August 2009

                      A-03-07-00011

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with fiscal intermediaries to process and pay Medicare Part B claims submitted by
hospital outpatient departments (providers). The intermediaries use the Fiscal Intermediary
Standard System and CMS’s Common Working File to process payments for claims. The
Common Working File can detect certain improper payments during prepayment validation.

Medicare guidance requires providers to submit accurate claims for outpatient services using the
appropriate Healthcare Common Procedure Coding System codes and to report units of service
as the number of times that a service or procedure was performed.

Highmark Medicare Services (Highmark), formerly Veritus Medicare Services, was the
Medicare fiscal intermediary for Pennsylvania during calendar years (CY) 2003−2005.
Highmark processed more than 19 million outpatient claims for Pennsylvania, 31 of which
resulted in payments of $50,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether the high-dollar Medicare payments that Highmark made
to providers for outpatient services were appropriate.

SUMMARY OF FINDINGS

Of the 31 high-dollar payments that Highmark made to providers, 29 were inappropriate. Of the
29 payments, 28 included overpayments totaling $2,148,343. Providers refunded $1,215,675 of
this amount prior to our audit and $300,518 as a result of our audit. Providers had not refunded
$632,150 in overpayments for seven claims at the time of our audit. For the remaining payment,
we were unable to review the claim because it was included in an investigation by the U. S.
Department of Justice.

Providers received these overpayments by billing excessive charges or by billing for excessive
units of service. Highmark made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the Common Working File had sufficient edits in place during
CY 2003–2005 to detect and prevent the overpayments.




                                                i
RECOMMENDATIONS

We recommend that Highmark:

    •   recover $632,150 for the seven identified overpayments and

    •   use the results of this audit in its provider education activities.

HIGHMARK MEDICARE SERVICES COMMENTS

In comments on our draft report (see Appendix), Highmark stated that it concurred with our
recommendations and will initiate action to recover the $632,150 in identified overpayments.
Highmark also brought to our attention a technical correction regarding the payment
methodology used to calculate the payment for one claim that we have amended in the report.




                                                   ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page


INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1 

              Medicare Fiscal Intermediaries..............................................................................1                   

              Claims for Outpatient Services ..............................................................................1                  

              Highmark Medicare Services.................................................................................1                    


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................2 

               Objective ...............................................................................................................2     

               Scope......................................................................................................................2   

               Methodology ..........................................................................................................2        


FINDINGS AND RECOMMENDATIONS ..............................................................................3 


          FEDERAL REQUIREMENTS..........................................................................................3


          INAPPROPRIATE HIGH-DOLLAR PAYMENTS .........................................................3 

               Excessive Units of Service Billed..........................................................................3 

               Excessive Units of Service Billed and Incorrect Rate Used ..................................4 


          CAUSES OF OVERPAYMENTS.....................................................................................5 


          FISCAL INTERMEDIARY PREPAYMENT EDIT.........................................................5 


          RECOMMENDATIONS...................................................................................................5                 


          HIGHMARK MEDICARE SERVICES COMMENTS ....................................................5 


APPENDIX

          HIGHMARK MEDICARE SERVICES COMMENTS




                                                                   iii
                                           INTRODUCTION 


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments (providers). The intermediaries’
responsibilities include determining reimbursement amounts, conducting reviews and audits, and
safeguarding against fraud and abuse. Federal guidance provides that intermediaries must
maintain adequate internal controls over automatic data processing systems to prevent increased
program costs and erroneous or delayed payments.

To process providers’ claims, the intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File. The Common Working File can detect certain improper
payments during prepayment validation.

In calendar years (CY) 2003–2005, fiscal intermediaries processed and paid more than
409 million outpatient claims, 1,243 of which resulted in payments of $50,000 or more (high-
dollar payments). We consider such claims to be at high risk for overpayment.

Claims for Outpatient Services

Providers generate the claims for outpatient services provided to Medicare beneficiaries.
Medicare guidance requires providers to submit accurate claims for outpatient services using the
appropriate Healthcare Common Procedure Coding System codes and to report units of service
as the number of times that the service or procedure was performed.

Highmark Medicare Services

Highmark Medicare Services (Highmark), formerly Veritus Medicare Services, was the
Medicare fiscal intermediary for Pennsylvania during CYs 2003–2005. 1 Highmark processed
more than 19 million outpatient claims for Pennsylvania, 31 of which resulted in high-dollar
payments.




1
 Veritus Medicare Services began operating as Highmark Medicare Services on July 1, 2006. Highmark Medicare
Services, a subsidiary of Highmark Inc, is headquartered in Pittsburgh and has offices in Camp Hill and
Williamsport, Pennsylvania.


                                                     1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the high-dollar Medicare payments that Highmark made
to providers for outpatient services were appropriate.

Scope

We reviewed the 31 high-dollar payments for outpatient claims that Highmark processed for
Pennsylvania providers during CY 2003–2005. We limited our review of Highmark’s internal
controls to those applicable to the 31 payments because our objective did not require an
understanding of all internal controls over the submission and processing of claims. Our review
allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained
from the National Claims History file, but we did not assess the completeness of the file.

We conducted our audit work from March 2008 through June 2009. Our audit included
contacting Highmark and the 16 providers that received the 31 high-dollar Medicare payments.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws and regulations;

   •	 used CMS’s National Claims History file to identify outpatient claims with high-dollar
      payments;

   •	 reviewed available Common Working File data for claims with high-dollar payments to
      determine whether the claims had been canceled and superseded by revised claims or
      whether payments remained outstanding at the time of our audit;

   •	 contacted the providers that received the high-dollar payments to determine whether the
      information on the claims was correct and, if not, why the claims were incorrect; and

   •	 coordinated the calculation of overpayments and discussed the results of our review with
      Highmark.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                2

                              FINDINGS AND RECOMMENDATIONS 


Of the 31 high-dollar payments that Highmark made to providers, 29 were inappropriate. Of the
29 payments, 28 included overpayments totaling $2,148,343. Providers refunded $1,215,675 of
this amount prior to our audit and $300,518 as a result of our audit. Providers had not refunded
$632,150 in overpayments for seven claims at the time of our audit. For the remaining payment,
we were unable to review the claim because it was included in an investigation by the U. S.
Department of Justice. 2

Providers received these overpayments by billing excessive charges or by billing for excessive
units of service. Highmark made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the Common Working File had sufficient edits in place during
CY 2003–2005 to detect and prevent the overpayments.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
providers to report claims for outpatient services using Healthcare Common Procedure Coding
System codes. CMS’s “Medicare Claims Processing Manual,” (the Manual) Pub No. 100-04,
chapter 4, section 20.4, states: “The definition of service units . . . is the number of times the
service or procedure being reported was performed.” In addition, chapter 1, section 80.3.2.2, of
the Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately.”

Section 3700 of the “Medicare Intermediary Manual” requires the fiscal intermediary to maintain
adequate internal controls over Medicare automatic data processing systems to preclude
increased program costs and erroneous and/or delayed payments.”

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Highmark made seven overpayments that providers had not refunded at the time of our audit.
For all seven overpayments, providers billed Highmark for excessive units of service. For one of
these claims, Highmark calculated the payment at an incorrect rate, which resulted in a higher
overpayment. In total, for claims that providers had not refunded at the time of our audit,
Highmark paid $1,087,292 when it should have paid $455,142, resulting in overpayments of
$632,150.

Excessive Units of Service Billed

For six of the seven overpayments, the providers billed Highmark for more units of service than
were performed. As a result, Highmark paid $ 419,569, when it should have paid $ 63,030,
resulting in an overpayment of $356,539

2
 The payment was part of a U. S. Department of Justice investigation that alleged the provider submitted erroneous
claims. The provider denied wrong doing but reached an agreement with the Government that included a monetary
settlement. Due to that investigation and agreement, we were unable to determine whether the high-dollar payment
Highmark made for that claim was proper.


                                                        3

       •	 For four of the overpayments, the provider billed Highmark for 10 times the number of
          units of cetuximab, a cancer treatment drug, than were administered. As a result,
          Highmark overpaid the provider $280,943.

       •	 For one of the overpayments, the provider billed Highmark for 84 laser vaporization
          services instead of 1 service. As a result, Highmark overpaid the provider $55,399.

       •	 For one of the overpayments, the provider incorrectly billed Highmark for the
          replacement/insertion of a neurostimulator, a service that was not performed. As a result,
          Highmark overpaid the provider $20,197.

Excessive Units of Service Billed and Incorrect Rate Used

The Manual, chapter 3, section 20.7-3, allows hospitals to receive “a special add-on payment for
the costs of furnishing blood clotting factors to Medicare beneficiaries with hemophilia, admitted
as inpatients of PPS [prospective payment system] hospitals. The clotting factor add-on payment
is calculated using the number of units (as defined in the HCPCS code long description) billed by
the provider under special instructions for units of service.”

For the remaining overpayment, the provider submitted an inpatient claim for a beneficiary with
hemophilia, that included charges for blood clotting factors. Highmark could not process the
total claim because its value exceeded the limit of the Fiscal Intermediary Standard System.
CMS therefore directed Highmark to pay part of the claim as an inpatient claim and the balance
as an outpatient claim.

Highmark paid the prospective payment system portion of the claim and the add-on payments for
the two clotting factors included on the inpatient claim in accordance with the Manual. The
inpatient claim included charges for 546 units of Factor VIIa (HCPCS code Q0187) that were
paid $1,077.23 per unit. In total, the provider billed for 1,091 units of clotting Factor VIIa;
however, 1,091 was the number of milligrams administered to the patient not the number of
billable units. Using the conversion factor 3 defined in the HCPCS code long descriptor, 1,091
milligrams is equivalent to 910 billable units.

Consequently, for the portion of the claim that was paid as an auxiliary outpatient claim:

       •	 the provider incorrectly billed for 181 more units (1,091 less 910) than administered and

       •	 Highmark relied on verbal instructions from CMS that resulted in using an incorrect
          payment methodology to calculate the payment.

As a result of these errors, Highmark paid the provider $667,723 when it should have paid a total
of $392,112, resulting in an overpayment of $275,611.


3
    One billable unit of Factor VIIa is equal to 1.2 milligrams administered.


                                                             4

CAUSES OF OVERPAYMENTS

The providers attributed the incorrect payments to clerical errors made by their billing staffs and
to problems with incorrect data in their billing systems. In addition, during CY 2003–2005,
Highmark did not have prepayment or postpayment controls to identify overpayments at the
payment level, and the Common Working File prepayment process lacked edits to detect and
prevent excessive payments. In effect, CMS relied on providers to notify the intermediaries of
excessive payments and on beneficiaries to review their “Medicare Summary Notice” and
disclose any overpayments. 4

FISCAL INTERMEDIARY PREPAYMENT EDIT

On January 3, 2006, after our audit period, CMS required intermediaries to implement a Fiscal
Intermediary Standard System edit to suspend potentially excessive Medicare payments for
prepayment review. This edit suspends high-dollar outpatient payments and requires
intermediaries to determine the legitimacy of the payments.

Highmark stated that it had an edit in place during our audit period that suspended for
prepayment review all claims with payment amounts greater than $150,000. Beginning
January 3, 2006, Highmark reduced their edit limit to payment amounts greater than $50,000.
Highmark reviewed claims that exceeded the limit and verified the units and amount billed with
the providers. If the providers verified that the units and amount billed were correct, Highmark
processed the claims. If the providers did not verify the units and amount billed, Highmark
returned the claims to the providers for correction.

RECOMMENDATIONS

We recommend that Highmark:

     •   recover $632,150 for the seven identified overpayments, and

     •   use the results of this audit in its provider education activities.

HIGHMARK MEDICARE SERVICES COMMENTS

In comments on our draft report, Highmark stated that it concurred with our recommendations
and will initiate action to recover the $632,150 in identified overpayments. Highmark also
brought to our attention a technical correction regarding the payment methodology used to
calculate the payment for one claim that we have amended in the report. Highmark’s comments
are included in the Appendix.




4
 The fiscal intermediary sends a “Medicare Summary Notice” to the beneficiary after the hospital files a claim for
outpatient services. The notice explains the services billed, the approved amount, the Medicare payment, and the
amount due from the beneficiary.


                                                         5

APPENDIX

                                                                                               APPENDIX
                                                                                                Page 1 of 3




                                 <FiIGHMARK.
                                    M1:DK:I.RE SERvICES
                                        ~-~




S""",,"V_                                                                 August 11, 2009
Regional Inspector General for Audit 5ervices
Office of Audit services, Region III
Public Ledger Building, Suite 316
150 S. Independence Man West
Philadelphia. PA 19106-3499
DIG Report NIJTlber: A-03-07-0011

Dear Mr. VIfbilsky:

Attached is the Highmark MecfICilR! services' response to your request fat corrrnents on !he
dl3ft report entitled, "Review of High-Oollar Payments for Pennsylvania Medicare Hospital
Outpatient Claims Processed by Highmark Medicare Servioes for the caJendar VealS 2003­
2005:

Please do not hesitate to contact me at (717) 302-4410 if you have any questions.




Sincerely,


tJ~~
~~~       g=      and Performance Management


cc: Bernard Siegel




                                          P.O.llo>8IOCII
                                        c.w,., ... AA "3!9
                                  wwwljql'r-M\l . .      • ....
                                                                                               APPENDIX
                                                                                                Page 2 of 3




 Highmark Medicare Services
                Response to QIG Audit A-03-07-0011

I. Inappropriate High-Oollar Payments

 "Highmark made seven overpayments that providers had not refunded attha time of our
 audit. For all seven overpayments, providers billed Highmark for excessive units of
 service. For one of these claims, Highmark calculated the payment at an incorrect rate,
 which resulted in a higher overpayment. In total, for claims that providers had not
 refunded at the time of our audit, Highmark paid $1,087,292 when it should have paid
 $455,142, resulting in overpayments of $632, 150.

 Excessive Units of Service Billed

 For six of the seven overpayments, the providers billed Highmark for more units of
 service than were performed. As a result, Highmark paid $ 419,569, when it should
 have paid $63,030, resulting in an overpayment of $356,539

 Excessive Units of Service Billed and Incorrect Rate Used

 The Manual, chapter 3, section 20.7-3, allows hospitals to receive "a special add-on
 payment for the costs of furnishing blood clotting factors to Medicare beneficiaries with
 hemophilia, admitted as inpatients of PPS [prospective payment system) hospitals. The
 clotting factor add-on payment is calculated using the number of units (as defined in the
 HCPCS [Healthcare Common Procedure Coding SystemJ code long descriptor) billed
 by the provider under special instructions for units of service:

 For the remaining overpayment, the provider submitted an inpatient claim for a
 beneficiary with hemophilia, that included charges for blood clotting factors. Highmark
 could not process the tolal claim because its value exceeded lhe limit of the Fiscal
 Intermediary Standard System. CMS therefore directed Highmark to pay part oftha
 claim as an inpatient claim and the balance as an outpatient claim.

 Highmark paid the prospective payment system portion of the claim and the add-on
 payments for the two clottin9 factors included on the inpatient claim in accordance with
 the Manual. The inpatient claim included charges for 546 units of Factor Vila (HCPCS
 code 00187) that were paid $1,077.23 per unit. In total, the provider billed for 1,091
 units of clotting FactorVlla; however, 1,091 was the number of milligrams administered
 to the patient not the number of billable units. Using the conversion factor defined in the
 HCPCS code long descriptor, 1,091 milligrams is equivalent to 910 billable units.
 Consequently, for the portion of the claim that was paid as an auxiliary outpatient claim:
             • the provider incorrectly billed for 181 more units (1,091 less 910) than
                 administered and
             • Highmark used the incorrect payment methodology to calculate the
                 payment.

 As a result of these errors, Highmark paid the provider $667,723 when it should have
 paid a total of $392,112, resulting in an overpayment of $275,611."
                                                                                            APPENDIX
                                                                                             Page 3 of 3 





Recommendation

'We recommend Highmark recover the $632,t5O for the seven identified
overpayments.·

Highmark Medicare Services Response

we accept this I"EICOfTWTIef'n.      Upon receipt of the clam detail information, we will
initiate activity to recover the $632,150 for the seven identified overpayments.

HMS disagrees with the OIG observation that Higtvnark calculated the payment at the
incorrect rate. For the daim in question, the provider submitted the claim with the
excessive units of service billed. At the time this claim was processed, the eMS
standard system did not permit the coding of the total services biDed on a single line.
Highmark. received verbal instructions from CMS on which we relied to process the
claim.

Recommendation

"We recommend thai Highmark use the results of this audit in its provider education
activities.·

Highmark Medicare Services Response

Highmark. Medicare Services concurs with this recommendation and will include the
results of this audit in our analysis of provider education activities. Highmark Medicare
Services Informatics Team conducts proactive data analysis on an ongoing basis to
determine unusual pattems and discover issues of risk for the Medicare program. This
information is used as a resource in determining provider education activities.
